November 22, 2010

DEAN J. GRANHOLM
VICE PRESIDENT, DELIVERY AND POST OFFICE OPERATIONS

SUBJECT: Audit Report – City Delivery Operations Workforce Planning
         (Report Number DR-AR-11-001)

This report presents the results of our audit of workforce planning in city delivery
operations (Project Number 10XG020DR000). Workforce planning is a systematic
identification and analysis of what an organization is going to need in terms of the size,
type, and quality of workforce to achieve its objectives. It determines what mix of
experience, knowledge, and skills is required and sequences steps to get the correct
number of the right people in the right place and at the right time. Our objective was to
evaluate the Postal Service’s workforce planning process for city delivery carriers. This
self-initiated audit addresses strategic risk. See Appendix A for additional information
about this audit.

The U.S. Postal Service is delivering fewer pieces of mail to a growing number of
addresses as new households and businesses are added to the delivery network each
year. During the past 3 years, the Postal Service reduced its city letter carrier workforce
and workload; however, financial losses continue to occur while salary and benefits will
continue to increase. The Postal Service must achieve unprecedented levels of
efficiency to accommodate this new growth while facing financial loss from declining
mail volume.

Conclusion

The Postal Service’s workforce planning process for city letter carriers did not always
optimize available resources. In fiscal year (FY) 2009, the Postal Service could have
avoided paying almost 7 million of the 28 million overtime hours for full-time city letter
carriers by maximizing available, lower cost carrier resources to deliver the mail.

City Delivery Workforce Planning

Delivery management often used full-time city delivery carriers in overtime status to
deliver the mail when using lower cost part-time and transitional carriers would have
been more economical. Based on workload trends, vacancies, absences, and mail
volume, supervisors decide either to use overtime with full-time carriers or staff routes
with part-time or transitional city letter carriers to ensure mail is delivered on routes.
City Delivery Operations Workforce Planning                                                          DR-AR-11-001




Postal Service Headquarters and area officials have implemented initiatives aimed at
improving delivery operation performance including reducing managers’ daily
administrative burdens,1 implementing new staffing tools, and improving daily
communication of office operations. Moreover, area officials have primarily focused on
increasing route efficiency and reducing overall workhours. However, management has
not fully developed an overall city delivery operations strategy that optimizes resources
and focuses on the type of workhours used and the associated staff costs to deliver the
mail on city routes.2 See Appendix B for our detailed analysis of this topic.

By not optimizing all city carrier staffing resources, the Postal Service unnecessarily
incurred excess costs of over $153 million in FY 2008 and approximately $122 million in
FY 2009. Additionally, operating costs of more than $275 million could be reduced over
a 2 year period (FYs 2010 and 2011).3 See Appendix C for our monetary impact
calculations.

We recommend the vice president, Delivery and Post Office Operations:

    1. Collaborate with area management to develop and implement an overall city
       delivery operations strategy that optimizes the most cost-effective combination of
       full-time, part-time, and transitional city carrier resources to reduce overtime
       workhours and costs.

Management’s Comments

Management agreed in principle with the recommendation, but disagreed with the
findings and monetary impact. Specifically, the Headquarters Delivery Operations
Group will continue to work with field managers in the future to sustain and improve
delivery operations. The need to closely monitor overtime usage will be part of the
strategy. Management’s response stated:

   the conclusion referencing the number of overtime hours that could have been
    avoided is unsupported and inaccurate.

   no quantitative conclusion can be made because the study lacks consideration of
    staffing to the number of routes and workload.

   the cost model incorrectly assumed that any workhours below 40 per week for Part
    Time Flexible (PTF) and Transitional Employees (TE) staff at the national level were

1
  In June 2010, officials stated that they eliminated the use of redundant manual review logs and checklists and
implemented an electronic two-step process to allow managers more time to be on the workroom floor for mail
volume measuring, interaction with the carriers, and adjusting routes with electronic staffing data.
2
  Unit officials implemented the newly established webpage where they can record and communicate daily office
conditions (while retaining full accountability for task required) that area and district management can view.
3
  The estimates are considered reasonable, with the annual cost savings representing roughly less than 1 percent of
the total labor budget for city letter carriers.




                                                         2
City Delivery Operations Workforce Planning                                    DR-AR-11-001



    available to reduce overtime and this assumption and conclusion is flawed for
    several reasons.

   the conclusion that they “. . . had not developed an overall strategy that optimized
    the most effective combination of all carrier resources to deliver the mail.” is
    inaccurate.

See Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation and management’s corrective action
should resolve issues identified in the report.

Regarding the number of overtime hours that could have been avoided is unsupported
and inaccurate, the OIG analysis was based on quantitative analysis of the area and
district level overtime usage as well as limited analysis at the unit level showing
available lower cost PTF and TE hours that could be used. Our cost model contains
each level of data as well as assumptions to reflect the delivery operating environment.
We consider our cost saving calculations to be conservative, sound and reasonable.
Our conclusion is supported with evidence from reviews of field documents, interviews
with area and district officials, and analysis of data derived from Postal Service
databases.

Regarding the claim that no quantitative conclusion can be made when the study lacks
consideration of staffing to the number of routes and workload, the OIG performed a
quantitative area and district analysis showing that lower cost staff was available to
perform delivery office and street assignments. Moreover, our methodology did not
assume every stray full time overtime work hour would be converted to a PTF or TE
straight time workhour. The calculation took credit for approximately one-quarter of the
full time overtime workhours used.

Regarding the statement that the cost model incorrectly assumed that any workhours
below 40 per week for PTF and TE staff at the national level were available to reduce
overtime. The OIG acknowledges management’s identified restrictions; however, our
calculation methodology did not assume every full time overtime work hour would be
converted to a PTF or TE straight time work hour. The calculation took credit for
approximately one-quarter of the full time overtime workhours used.

Regarding not developing an overall strategy that optimized the most effective
combination of all carrier resources to deliver the mail, our review did not identify
evidence of a documented strategy communicated to area officials. The OIG
acknowledges management’s verbal communication efforts with field managers to




                                              3
City Delivery Operations Workforce Planning                                 DR-AR-11-001



reduce overtime workhours, but this strategy could be enhanced and better
documented.

In Appendix E, we address management’s concerns in detail regarding disagreement
with the finding and monetary impact.

The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
the corrective action is completed. The recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director,
Delivery, or me at 703-248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Douglas A. Tulino
    Elizabeth A. Schaefer
    Philip F. Knoll
    Alan S. Moore
    Corporate Audit and Response Management




                                              4
City Delivery Operations Workforce Planning                                                                  DR-AR-11-001



                                APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Planning and managing the city delivery workforce and associated workhours require
managers to plan and schedule staffing to match workload trends. Each delivery
facility’s mail volume, mail arrival and dispatch times, and office and street route
workhours vary daily. With the varied daily operational activities, supervisors may need
to make immediate staffing decisions based on each route’s daily volume. The Postal
Service implemented management tools for supervisors to assist with their daily staffing
decisions.4 For city delivery supervisors, the Delivery Operations Information System
(DOIS) provides unit management information online and allows supervisors to use data
for making decisions to match workload with available resources. In addition,
supervisors have the City Delivery Pivoting5 Opportunity Model (CDPOM) to assist them
in making staffing decisions that match workload trends related to pivoting opportunities.

Although the Postal Service has achieved significant gains in automated mail
processing, mail delivery remains primarily a manual process. To effectively manage
this manual process and improve productivity, delivery managers must continue to
eliminate process inefficiencies and manage costs.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate the Postal Service’s workforce planning process6 for city
delivery carriers. Specifically, to accomplish our objective we:

   Reviewed Postal Service documentation including applicable policies, procedures,
    and contracts; and interviewed headquarters officials on issues related to the Postal
    Service’s workforce planning process for city delivery operations.

   Analyzed city delivery performance data from various Postal Service systems on city
    delivery carriers, routes, mail volume, delivery point sequencing (DPS) percentages,
    delivery points, overtime, penalty overtime, and workhours for FYs 2008 and 2009,
    as well as Quarters 1 through 2, FY 2010.

   Judgmentally selected and visited the Capital Metro, Eastern, Northeast, and Pacific
    areas; and judgmentally selected district locations within those areas based on
    analysis of Postal Service locations with the best opportunity to increase their use of
    part-time workhours and available resources.7 We made site visits to these locations

4
  Officials also have the CDPOM as a performance management tool to assist local unit managers and senior
managers to plan and schedule necessary staffing to match workload trends and develop pivot plans.
5
  Pivoting is defined as dividing the office and street activity of a route into sections assigned to individual carriers.
6
  We focused on the mix of staff in city delivery operations.
7
  We selected the areas with the highest number of part-time flexible (PTF) and transitional employee (TE) staff
straight time workhours available. We determine available workhours as the maximum number of weekly hours the
PTFs and TEs could work minus the actual number of straight time workhours used.




                                                             5
City Delivery Operations Workforce Planning                                                            DR-AR-11-001



    to determine the reasons management officials often used full-time city delivery
    carrier’s resources in overtime status to deliver the mail rather than using lower-cost
    part-time and transitional8 carriers.

We conducted this audit from February through November 2010 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. We discussed our observations and
conclusions with management officials on August 5 and 12, 2010, and included their
comments where appropriate.

We relied on data obtained from Postal Service database systems, the Enterprise Data
Warehouse (EDW), and New on Rolls Paid Employee Stats (NORPES). We did not test
controls over these systems; however, we checked the reasonableness of results by
confirming our analysis and results with management and other data sources. We
determined that the data were sufficiently reliable for the purposes of this report.




8
 PTF employees are career hourly rate employees who are available to work flexible hours as assigned by the
Postal Service during the course of a service week. Employees in the transitional work force are non-career
bargaining unit employees categorized as TEs and utilized in accordance with the terms of their respective collective
bargaining agreements. They are hourly rate employees hired for terms designated in the appropriate national
bargaining agreement.




                                                          6
 City Delivery Operations Workforce Planning                                                  DR-AR-11-001



 PRIOR AUDIT COVERAGE

 The OIG issued one audit report and the Government Accountability Office (GAO)
 issued two reports related to the objective.


                              Report           Final Report
      Report Title           Number                Date                        Report Results
The Postal Service’s       HM-AR-07-004         09/26/2007    Although the Postal Service has taken some
Comprehensive                                                 steps to address workforce planning for
Strategic Workforce                                           bargaining and non-bargaining employees at
Plan                                                          both the field and headquarters levels, it has
                                                              not developed and implemented a
                                                              comprehensive strategic workforce plan that
                                                              fully addresses the five key elements essential
                                                              to successful workforce planning.
                                                              Management disagreed with portions of the
                                                              finding, but agreed with the recommendations.
U.S. Postal Service:       GAO 09-696           7/15/2009     Postal Service delivery managers have written
Mail Delivery Efficiency                                      guidance and information systems to help
Has Improved, but                                             them monitor delivery efficiency. These tools
Additional Actions                                            set carrier and unit expectations and evaluate
Needed to Achieve                                             performance. However, there is no single
Further Gains                                                 measure of delivery efficiency so managers
                                                              use various metrics to measure effectiveness.
Strategies and Options     GAO-10-455           4/12/2010     Action by Congress and the Postal Service is
to Facilitate Progress                                        urgently needed to require that any binding
towards Financial                                             arbitration resulting from collective bargaining
Viability                                                     would take the Postal Service's financial
                                                              condition into account.




                                                      7
 City Delivery Operations Workforce Planning                                        DR-AR-11-001



                                APPENDIX B: DETAILED ANALYSIS

 City Delivery Workforce Planning

 The Postal Service’s workforce planning for city letter carriers did not always optimize
 its resources by maximizing the use of available and lower-cost part-time and
 transitional carriers to reduce overtime costs for delivering the mail. Based on workload
 trends, vacancies, absences, and mail volume, supervisors decide either to use
 overtime with full-time carriers or staff routes with part-time or transitional city letter
 carriers to ensure mail is delivered on routes.

 Our analysis identified that, during FY 2009, city delivery supervisors scheduled full-time
 city delivery carriers to use overtime hours to deliver the mail on city routes.
 Management actually expended overtime hours at a cost of more than $282 million,
 rather than use available and lower-cost PTF and transitional straight-time workhours at
 a cost of about $160 million. Using the lower cost employees would have saved
 approximately $122 million (see Table 1).

              Table 1: Full-Time Overtime Versus PTF/TE Workhours for FY 2009
                                       Overtime Costs
                                        Expended for     Straight-      Costs Saved By
                  Total Available
                                       Full-Time (FT)   Time Costs    Maximizing the Use
    Area         PTF/TE Straight-
                                         City Letter    for PTF/TE    of Available PTF/TE
                 Time Workhours
                                           Carrier      Workhours     Carrier Workhours
                                         Workhours
Capital Metro                 951,250      $25,489,722  $14,611,415            $10,878,306
Eastern                     1,209,416       35,096,616   19,658,088             15,438,529
Great Lakes                 1,149,270       36,820,592   20,958,508             15,862,083
Northeast                   1,998,218       57,259,585   32,116,177             25,143,408
Pacific                     1,214,320       38,238,454   21,901,031             16,337,422
Southeast                     937,458       28,040,813   15,958,764             12,082,048
Southwest                   1,128,025       42,634,103   24,682,763             17,951,340
Western                       790,620       18,724,251   10,464,367               8,259,883
Total                       9,378,577     $282,304,134 $160,351,114           $121,953,020
 Source: EDW. *Totals may not add up due to rounding.

 The Postal Service maintains an authorized complement of part-time and transitional
 city letter carriers assigned to city delivery units. These city letter carriers are available
 as needed to deliver mail when workload trends change on routes. These carriers are
 paid at a lower wage rate than full-time city carriers and are capable of performing the
 duties of a full-time city letter carrier. Further, they provide management with the
 flexibility to handle dynamic and changing workload trends on city routes as needed.
 Postal Service Delivery Operations and Labor Relations officials told the OIG that the
 national labor agreement does not restrict management from using and maximizing
 part-time and transitional carriers’ available hours. With workhours from this part-time




                                                        8
City Delivery Operations Workforce Planning                                                              DR-AR-11-001



complement available, increased use of them on city routes can have a positive impact
on city delivery operating costs.

Postal Service Headquarters officials have implemented the following initiatives aimed
at improving delivery operation performance by reducing managers’ daily administrative
burdens and improving daily communication regarding office conditions.

   Provided staffing management tools such as CDPOM and DOIS to help them make
    better decisions in terms of scheduling staff.

   Eliminated the use of redundant manual review logs and checklists and implemented
    an electronic two-step process for supervisors to provide more free time for
    consistent use of staffing management tools.

   Implemented a new webpage where unit officials can record and communicate daily
    office conditions while retaining full accountability for the tasks required.

Area management officials were aware of these initiatives and have used the available
staffing management tools in varying degrees. Some area management officials stated
they are enhancing the use of staffing management tools to reduce overtime workhours
and improve supervisors’ ability to make day-to-day staffing decisions.

Although both Postal Service Headquarters and area management officials
implemented initiatives and have used the available staffing management tools in
varying degrees, they have primarily focused on increasing route efficiency and
reducing overall workhours. This condition occurred because management has not fully
developed an overall city delivery operations strategy that optimizes the most cost-
effective combination of full-time, part-time, and transitional city letter carrier resources
for delivering mail; and reducing overtime workhours.

Even with mail processing automation equipment placing more mail volume into the
carrier’s delivery line of travel, managers have continued assigning full-time city letter
carriers who are familiar with the routes to deliver the mail. Management stated that
using these carriers further reduced casing time and delivery workhours, versus
assigning less costly PTF or transitional carriers with minimal knowledge of the routes.
However, the staffing management tools allow supervisors to identify the PTF or
transitional carriers’ level of route knowledge and note the number of times the carrier
has serviced the route to determine where they can be assigned. Given this information
and increases in DPS9 percentages, management can optimize all city carrier staffing
resources on routes.

As a result, the Postal Service expended more resources than necessary to deliver the
mail. We estimate that by not optimizing its resources, the Postal Service unnecessarily
9
 DPS is a process that allows sorting of bar-coded letter mail at the processing plants and delivery units into the
carrier’s line-of- travel. Mail is taken directly to the street, with no casing time in the office.




                                                           9
City Delivery Operations Workforce Planning                              DR-AR-11-001



incurred unrecoverable questioned costs of over $153 million in FY 2008, and
approximately $122 million in FY 2009. Additionally, operating costs of more than
$275 million could be reduced over a 2 year period (FYs 2010 and 2011). See Appendix
C for our monetary impact calculations.




                                              10
City Delivery Operations Workforce Planning                                                              DR-AR-11-001



                                   APPENDIX C: MONETARY IMPACTS

We estimate by not optimizing its resources, the Postal Service’s unnecessarily incurred
unrecoverable questioned costs of $275,161,307 over a 2 year period (FYs 2008 and
2009), and could reduce operating cost by $275,161,307 in funds put to better use over
a 2 year period (FYs 2010 and 2011). See Table 2.

                                   Table 2. Monetary Impact
                 Finding                         Impact Category                              Estimated Savings
 Workforce Planning for City Letter Carriers Unrecoverable questioned
                                                                                                      $275,161,307
 FYs 2008 and 2009                           costs10
 Workforce Planning for City Letter Carriers
                                             Funds put to better use11                                 275,161,307
 FYs 2010 and 2011
 Total Monetary Impact                                                                                $550,322,614
                                     Source: OIG Analysis.

Available PTF and TE Workhours

To determine the number of available PTF and TE hours, we employed the following
methodology:

      We obtained the nationwide city delivery complement from NORPES by district and
       area for each month in FYs 2008 and 2009 to determine the total number of
       employees on the roll by city delivery employee type (full-time, PTF, and TE). We
       calculated the average number of carriers by employee type for each fiscal year to
       compute the maximum number of available hours for PTF and TE carriers.

      We obtained the FYs 2008 and 2009 actual straight time, overtime, and penalty
       overtime workhours by city delivery employee type from the Postal Service’s EDW
       System National Payroll Hour Summary Report to compute savings.

      We used the Postal Service National Average Labor Rates table to obtain the FYs
       2008 and 2009 average workhours part time and transitional staff could work. The
       FY 2008 average was 1,760 hours for PTF carriers and 1,984 hours for TE carriers.
       The FY 2009 average was 1,756 hours for PTF carriers and 1,983 hours for TE
       carriers. We calculated the maximum straight hours that a PTF could have worked
       by multiplying the total number of PTFs by the average workhours designated in the
       labor rates table for each fiscal year. We used the same methodology to compute
       the maximum straight hours for the TE staff.

      We calculated the available straight time PTF hours by subtracting the maximum
       straight time hours that a PTF could work from total actual PTF straight hours


10
     Unrecoverable costs that are unnecessary, unreasonable, or an alleged violation of law or regulation.
11
     Funds that could be used more efficiently by implementing recommended actions.




                                                            11
         City Delivery Operations Workforce Planning                                                                                   DR-AR-11-001



                worked during the fiscal year. We used the same methodology to compute the
                maximum straight hours for the TE staff (see Table 3).

               We subtracted the total number of available PTF and TE straight time hours from the
                total number of full-time carrier overtime hours to ensure that the number of
                available PTF and TE hours did not exceed the total number of full-time carrier
                overtime hours.

          Table 3. Summary of Available Straight Time Hours for PTF and TE Carriers by Area for FY 2008 and FY 2009
                                                                                                                                                      Total PTF/TE
                                                                                                                                                    Available Straight
                                                                                                                                                     Hrs That Could
                                                                                 Max Straight    Max Straight                                          Have Been
                  Total PTF                      Total PTF    Total TE Straight Time Hrs PTFs    Time Hrs TEs    PTF Available     TE Available     Worked Instead of
        Area       Carriers Total TE Carriers   Straight Hrs         Hrs          Could Work      Could Work      Straight Hrs     Straight Hrs     Full Time OT Hrs
Capital Metro         1,876            1,072        2,917,575        1,561,031       3,302,347       2,127,509           384,772          566,478             951,250
Eastern               3,449            1,892        5,681,177        2,933,615       6,069,653       3,754,555           388,476          820,940           1,209,416
Great Lakes           2,780            1,745        4,348,720        2,856,634       4,892,213       3,462,411           543,493          605,777           1,149,270
Northeast             4,338            2,457        7,030,204        3,482,541       7,635,613       4,875,349           605,409        1,392,808           1,998,218
Pacific               3,658            2,027        6,011,661        3,232,603       6,437,347       4,021,237           425,686          788,634           1,214,320
Southeast             2,701            1,537        4,410,337        2,455,941       4,754,493       3,049,243           344,156          593,302             937,458
Southwest             2,633            1,148        3,888,480        1,894,786       4,633,493       2,277,797           745,013          383,011           1,128,025
Western               3,094            1,370        5,216,975        2,156,714       5,445,733       2,718,576           228,758          561,862             790,620
FY 2008 Total        24,529           13,249       39,505,129        20,573,865     43,170,893      26,286,677         3,665,764        5,712,812           9,378,577

Capital Metro        1,510            1,106        2,302,687        1,886,299       2,651,560        2,193,363           348,873          307,064             655,937
Eastern              3,234            2,121        5,379,735        3,601,886       5,678,172        4,206,604           298,437          604,718             903,155
Great Lakes          2,407            1,928        3,781,410        3,320,307       4,226,838        3,822,398           445,428          502,091             947,519
Northeast            3,922            2,843        6,382,914        4,668,100       6,887,325        5,637,173           504,411          969,073           1,473,484
Pacific              3,291            1,940        5,263,310        3,379,470       5,779,435        3,847,351           516,125          467,881             984,006
Southeast            2,402            1,614        3,879,580        2,816,978       4,217,912        3,200,232           338,332          383,254             721,586
Southwest            2,374            1,368        3,488,890        2,295,147       4,168,744        2,712,414           679,854          417,267           1,097,121
Western              2,404            1,489        4,088,135        2,620,842       4,221,717        2,952,687           133,582          331,845             465,427
FY 2009 Total       21,544           14,409       34,566,661       24,589,029      37,831,703       28,572,221         3,265,042        3,983,192           7,248,234




         Available PTF and TE Unrecoverable Costs Savings

         To determine the unrecoverable cost savings for available PTF and TE hours, we used
         the following methodology:

               We used the straight time labor rates in the EDW National Payroll Hour Summary
                Report to calculate the dollars for the PTF and TE straight time available hours. We
                used a weighted average to determine each district’s contribution to the nationwide
                straight time labor rate for each fiscal year. For each district, we divided the district’s
                total PTF straight time hours by the nationwide total PTF straight time hours and
                then multiplied that figure by the district’s PTF straight time labor rate. We computed
                the nationwide average PTF straight time rate at $21.60 in FY 2008 and $23.46 in
                FY 2009. For each district, we divided the district’s total TE straight time hours by
                the nationwide total TE straight time hours and then multiplied that figure by the
                district’s TE straight time labor rate. We computed the nationwide average TE
                straight time rate at $19.85 in FY 2008 and $20.93 in FY 2009.

               We used the full-time overtime and penalty overtime hours and full-time labor rates
                in the EDW National Payroll Hour Summary Report to compute the full-time carrier




                                                                                 12
City Delivery Operations Workforce Planning                                                        DR-AR-11-001



     overtime rate for the available PTF and TE hours. We used a weighted average to
     determine each district’s contribution to the labor rate for the combined total
     overtime and penalty overtime hours for each fiscal year.

    For each district, we divided the district’s total overtime hours by the nationwide total
     overtime hours and then multiplied that figure by the district’s overtime labor rate.
     The nationwide average overtime rate was $36.45 in FY 2008 and $38.43 in FY
     2009. We computed the nationwide weighted overtime labor rate by obtaining the
     percentage of overtime hours to the sum of the overtime and penalty overtime hours
     and multiplying that total by the nationwide average overtime labor rate.12 We
     calculated the nationwide weighted average overtime rate at $35.09 in FY 2008 and
     $37.07 in FY 2009.

    For each district, we divided the district’s total penalty hours by the nationwide total
     penalty hours and then multiplied that figure by the district’s penalty labor rate. The
     nationwide average penalty rate was $47.78 in FY 2008 and $50.52 in FY 2009. We
     computed the weighted penalty rate by obtaining the percentage of penalty overtime
     hours to the sum of the overtime and penalty hours and multiplying that total by the
     nationwide average penalty labor rate.13 We calculated the nationwide weighted
     average penalty rate at $1.79 for both FYs 2008 and 2009.

    We added the overtime and penalty labor rates from each calculation which resulted
     in a weighted average full-time carrier overtime labor rate of $36.87 in FY 2008 and
     $38.86 in FY 2009.

    We calculated the full-time overtime dollars for the available PTF hours by
     multiplying the full-time weighted average labor rate by the available PTF hours. We
     calculated the full-time overtime dollars for the available TE hours by multiplying the
     full-time weighted average labor rate by the available TE hours.




12
  The overtime hours represented 96 percent of the total overtime and penalty overtime hours in FYs 2008 and 2009.
13
  The penalty overtime hours represented 4 percent of the total overtime and penalty overtime hours in FYs 2008
and 2009.




                                                       13
City Delivery Operations Workforce Planning                                                                                                   DR-AR-11-001




    We subtracted the cost of the available PTF and TE straight time hours at the full-
     time weighted average overtime rate from the cost at the PTF and TE straight time
     rate to determine the cost savings (see Table 4).
                  Table 4. Available PTF and TE Unrecoverable Cost Savings for FYs 2008 and 2009
                                                                                                              PTF Cost Savings     TE Cost Savings
                Total PTF/TE                                                                                      (Difference         (Difference
                  Available                                                                                    Between Cost of     Between Cost of
                 Straight Hrs                                                                                    Available PT        Available TE
              That Could Have                                           Full-time OT        Full-time OT         Straight Time      Straight Time
               Been Worked         PTF Dollars         TE Dollars     Dollars (Weighted   Dollars (Weighted    Dollars and Full-   Dollars and Full-      Total
               Instead of Full    (Straight Time     (Straight Time     Avg Rate) for       Avg Rate) for       time Overtime       time Overtime    Unrecoverable
     Area       Time OT Hrs            Rate)              Rate)       Available PTF Hrs   Available TE Hrs          Dollars)           Dollars)       Cost Savings
Capital Metro          951,250   $ 8,311,068.00     $ 11,244,594.92   $ 14,186,531.35     $ 20,886,056.15     $ 5,875,463.35       $ 9,641,461.23      $15,516,924.58
Eastern              1,209,416   $ 8,391,088.80     $ 16,295,652.38   $ 14,323,122.41     $ 30,268,045.51     $ 5,932,033.61       $ 13,972,393.13     $19,904,426.74
Great Lakes          1,149,270   $ 11,739,456.00    $ 12,024,666.83   $ 20,038,599.20     $ 22,334,985.70     $ 8,299,143.20       $ 10,310,318.87     $18,609,462.07
Northeast            1,998,218   $ 13,076,841.60    $ 27,647,245.42   $ 22,321,442.12     $ 51,352,843.25     $ 9,244,600.52       $ 23,705,597.83     $32,950,198.35
Pacific              1,214,320   $ 9,194,810.40     $ 15,654,391.52   $ 15,695,030.53     $ 29,076,947.87     $ 6,500,220.13       $ 13,422,556.35     $19,922,776.48
Southeast              937,458   $ 7,433,776.80     $ 11,777,038.08   $ 12,689,044.01     $ 21,875,032.45     $ 5,255,267.21       $ 10,097,994.37     $15,353,261.58
Southwest            1,128,025   $ 16,092,288.00    $ 7,602,774.97    $ 27,468,641.60     $ 14,121,627.86     $ 11,376,353.60      $ 6,518,852.89      $17,895,206.49
Western                790,620   $ 4,941,180.00     $ 11,152,960.70   $ 8,434,319.75      $ 20,715,851.94     $ 3,493,139.75       $ 9,562,891.24      $13,056,030.99
FY 2008 Total        9,378,577     $79,180,509.60   $113,399,324.82    $135,156,730.97     $210,631,390.73       $55,976,221.37      $97,232,065.91 $153,208,287.28

Capital Metro         655,937      $8,247,814.29   $8,835,724.83 $13,871,868.07 $16,409,286.45                   $5,624,053.78       $7,573,561.62    $13,197,615.39
Eastern               903,155      $7,696,214.32 $14,476,200.06 $12,960,198.59 $26,883,693.50                    $5,263,984.27      $12,407,493.43    $17,671,477.71
Great Lakes           947,519     $11,094,602.35 $11,266,713.12 $18,673,972.12 $20,923,116.12                    $7,579,369.77       $9,656,403.01    $17,235,772.77
Northeast           1,473,484     $12,455,157.92 $23,964,974.27 $20,961,420.31 $44,505,514.87                    $8,506,262.39      $20,540,540.60    $29,046,803.00
Pacific               984,006     $10,651,551.45 $12,723,565.19 $17,875,824.02 $23,629,392.05                    $7,224,272.56      $10,905,826.86    $18,130,099.42
Southeast             721,586      $7,685,522.76   $9,899,266.92 $12,918,312.77 $18,384,131.73                   $5,232,790.01       $8,484,864.81    $13,717,654.82
Southwest           1,097,121     $16,020,831.42   $8,168,081.41 $26,943,884.02 $15,168,302.03                  $10,923,052.60       $7,000,220.62    $17,923,273.22
Western               465,427      $4,230,015.71   $9,049,238.28   $7,131,536.82 $16,805,674.32                  $2,901,521.11       $7,756,436.05    $10,657,957.15
FY 2009 Total       7,248,234 $   78,081,710.22 $ 98,383,764.07 $131,337,016.71 $182,709,111.07 $               53,255,306.49 $     84,325,347.00    $137,580,653.48




Available PTF and TE Funds Put to Better Use Costs Savings


We averaged the totals calculated in the unrecoverable costs tables for FYs 2008 and 2009 to
project the funds put to better use for FYs 2010 and 2011.




                                                                              14
City Delivery Operations Workforce Planning                 DR-AR-11-001



                        APPENDIX D: MANAGEMENT’S COMMENTS




                                              15
City Delivery Operations Workforce Planning        DR-AR-11-001




                                              16
City Delivery Operations Workforce Planning        DR-AR-11-001




                                              17
City Delivery Operations Workforce Planning                                     DR-AR-11-001



         APPENDIX E: OIG EVALUATION OF MANAGEMENT’S COMMENTS

We appreciate management’s response to our draft report and the actions to continue
development and enhancement of an overall city delivery operations strategy that
optimizes the most cost-effective combination of full-time, part-time, and transitional city
carrier resources to reduce overtime workhours and costs.

The following presents management’s comments indicating disagreement with the
finding and monetary impact and OIG’s response. We also reference management’s
comments sections in Appendix D as appropriate.

1. Management disagreed with the monetary impact and conclusion. For the full
   management comment – see Appendix D, page 14, paragraph 1.

   OIG Response: See responses in numbers 2-5 below.
    
2. Management stated the conclusion of the audit referencing the number of overtime
   hours that could have been avoided is unsupported and inaccurate. For the full
   management comment see Appendix D, page 14, paragraph 3.

    OIG Response: The calculation for overtime hours that could have been avoided
    was based on quantitative analysis of the area and district level overtime usage. We
    performed similar limited analysis at the unit level as well to show available lower
    cost PTF and TE hours that could be used. Our cost model contains each level of
    data as well as assumptions to reflect the delivery operating environment. We
    consider our cost saving calculations to be conservative, sound and reasonable. We
    address specific concerns regarding the model in items 3 and 4 below. Our
    conclusion is supported with evidence from reviews of field documents, interviews
    with area and district officials, and analysis of data derived from Postal Service
    databases.

3. Management stated that no quantitative conclusion can be made because the study
   lacks consideration of staffing to the number of routes and workload. For the full
   management comment see Appendix D, page 14, paragraph 3.

    OIG Response: Our quantitative analysis at the area and district level shows the
    best alternative for overtime was to use less costly straight-time PTF and TEs staff,
    instead of full time carriers on overtime. We performed similar limited analysis at the
    unit level as well to show available lower cost PTF and TE hours that could be used.
    Moreover, for this review, OIG focused on the alternative lower cost staff available to
    field managers to reduce overtime usage in delivery units, not the staffing ratio of
    routes to carriers.

4. Management stated the cost model incorrectly assumed that any workhours below
   40 per week for PTF and TE staff at the national level were available to reduce




                                              18
City Delivery Operations Workforce Planning                                    DR-AR-11-001



    overtime and this assumption and conclusion is flawed for several reasons. For the
    full management comment see Appendix D, page 15.

           PTFs and TEs are not always available at all sites that use overtime due to
            geographical, contractual, and efficiency reasons. For the full management
            comments see Appendix D, page 15, first bullet.

            OIG Response: We acknowledge management’s identified restrictions on
            availability. However, our quantitative area and district analysis showed that
            this lower cost staff was available to perform delivery office and street
            assignments. We acknowledge TEs hired under the Flat Sequencing System
            Memorandum of Understanding, however, our review identified that this staff
            were being used in other locations performing other work in delivery units that
            was not solely related to FSS. Our calculation methodology did not assume
            every stray full time overtime workhour would be converted to a PTF or TE
            straight time workhour. The calculation took credit for approximately one-
            quarter of the full time overtime workhours used. For example, in FY 2009,
            the Postal Service used a total of 37,222,661 full time overtime workhours.
            The calculation methodology converted 9,378,577 of these hours to the lower
            cost PTF and TE rates, leaving 28,732,244 overtime hours unconverted.

           PTFs and TEs are contractually guaranteed 4 hours of pay when
            unscheduled but called in for work. For the full management comments see
            Appendix D, page 15, second bullet.

            OIG Response: We acknowledge management’s identified restrictions;
            however, our calculation methodology did not assume every full time overtime
            workhour would be converted to a PTF or TE straight time workhour. The
            calculation took credit for approximately one-quarter of the full time overtime
            workhours used.

           PTF and TE leave and training hours should be subtracted since they are not
            available when on leave or in training. For the full management comments
            see Appendix D, page 15, third bullet.

            OIG Response: We agree with management’s identified cost model
            assumptions not addressing the PTFs and TEs leave and training hour
            subtractions. We adjusted the numbers used in the calculation methodology
            to show the annualized average number of workhours available for PTFs and
            TEs. We used the Postal Service National Average Labor Rates table to
            obtain the FYs 2008 and 2009 average productive workhours available for
            part time and transitional staff, which do not include hours for training and
            leave. The FY 2008 average was 1,760 hours for PTF carriers and 1,984
            hours for TE carriers. The FY 2009 average was 1,756 hours for PTF carriers
            and 1,983 hours for TE carriers. We calculated the maximum straight hours




                                              19
City Delivery Operations Workforce Planning                                       DR-AR-11-001



            that a PTF could have worked by multiplying the total number of PTFs by the
            average workhours designated in the labor rates table for each fiscal year.
            We used the same methodology to compute the maximum straight hours for
            the TE staff. We revised the cost savings methodology to incorporate these
            changes for training and leave that showed significant reductions in the
            number of workhours available for the lower cost staff, in FY 2009, from 14
            million workhours down to 7 million workhours.

           Using all PTFs up to 40 hours instead of overtime would result in conversions
            of PTFs to full-time status. For the full management comments see Appendix
            D, page 15, forth bullet.

            OIG Response: We acknowledge management’s concerns regarding use of
            all PTF for 40 hours could result in PTF promotion to full time status.
            However, it is management’s responsibility to monitor PTF workhours and
            assignments to ensure they do not work the same assignment for 6 months.
            Our calculation methodology considered only available hours for PTFs and
            TEs up to their contract limits, which are below the 40 hour work week
            threshold. In addition, the TEs included in our calculation methodology, on
            average, were not working a full week, regardless of the original intention in
            which they were hired.

           TEs that were already hired for FSS implementation should not be included in
            the model. For the full management comments see Appendix D, page 15,
            paragraph 1, fifth bullet.

            OIG Response: We acknowledge TEs hired under the FSS MOU, however,
            our review identified that this staff were being used in other locations
            performing other work in delivery units that was not solely related to FSS.
            Therefore, our calculations included these TEs.

           TEs are required to have a five day break in service and are not available to
            work those days. For the full management comments see Appendix D, page
            15, paragraph 1, sixth bullet.

            OIG Response: We agree with management’s identified cost model
            assumptions not addressing TE employee’s requirement to take a 5 day
            break each calendar year. We revised the cost savings methodology to
            incorporate the changes and updated the monetary impact figures in the
            report. We consider our cost saving calculations to be conservative, sound
            and reasonable. The projected amounts in FYs 2010 and 2011 represent
            roughly less than 2 percent of the total labor budget for city letter carriers.

           The salary rates used do not include the fully loaded costs. For the full
            management comments see Appendix D, page 15, paragraphs 2 and 3.




                                               20
City Delivery Operations Workforce Planning                                      DR-AR-11-001




            OIG Response: We did not use the fully loaded salary rate that includes a
            salary, cost of leave, benefits, and “service-wide” fixed cost components.
            Fully loaded rates are applicable to situations in which we are modeling
            staffing changes that reduce the number of on-rolls employees. In this case,
            we are not reducing the number of on-roll employees. We modeled the cost
            savings of exchanging full-time overtime workhours with straight-time PTF
            and TE workhours, which would not affect benefits leave usage and fixed
            costs. We consider our cost saving calculations to be conservative, sound
            and reasonable. The projected amounts in FYs 2010 and 2011 represent
            roughly less than 2 percent of the total labor budget for city letter carriers.

5. Management stated the conclusion that they had not developed an overall strategy
   that optimized the most effective combination of all carrier resources to deliver the
   mail is inaccurate. For the full management comments see Appendix D, pages 15
   and 16, paragraph 4.

            OIG Response: The OIG statements in the report are accurate. Various
            officials in the areas and districts informed the OIG that their work focus was
            placed on route efficiency and reducing overall workhours and staffing
            decisions were made accordingly. OIG acknowledges management verbal
            communication efforts to reduce overtime workhours. However, our review
            did not identify evidence of a documented strategy to reduce overtime and
            delivery operating costs.




                                              21
